Le
I

COCKLE

2311 Douglas Street 1 B f
Omaha, Nebraska 68102-1214 a riefs
Est. 1923
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850
No. 20-828

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

FEDERAL BUREAU OF INVESTIGATION, et al.,

Petitioners,
ve
YASSIR FAZAGA, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF RESPONDENTS
PAT ROSE, PAUL ALLEN AND KEVIN ARMSTRONG IN SUPPORT OF CERTIORARI in the

above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being

prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this

brief contains 1676 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this 18th day of January, 2021.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska eremeenn| Aowe 0. Loo
fen nmness. | Exp. September 5, 2023

Notary Public

 

Oudraw-h, Gale

Affiant 40541
